APPENDIX A

No. 20-5872
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JEFFREY S. WHITAKER,
Petitioner-Appellant,
v.
MIKE PARRIS, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

FILED
Dec 16, 2020

DEBORAH S. HUNT, Clerk
ORDER

Before: GRIFFIN, Circuit Judge.

Jeffrey S. Whitaker, a pro se Tennessee prisoner, appeals the district court’s order
dismissing as untimely his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254.
Whitaker moves this court for a certificate of appealability and for leave to proceed in forma
pauperis on appeal. See Fed. R. App. P. 22(h). 241al('51.
In 1994, Whitaker pleaded guilty in the Roane County Criminal Court to eight counts of
child rape. According to Whitaker’s waiver of jury trial and request for acceptance of guilty plea,
the State would recommend a forty-five-year sentence, the trial court would decide the sentence
at a later hearing, and Whitaker would be sentenced under “Range I, Standard.” Whitaker received
an effective sentence of forty-five years of imprisonment.

On each judgment, the box for

“Standard 30% Range 1” was checked while the box for “Child Rapist” was not checked.
Whitaker challenged his consecutive sentencing on direct appeal, and the Tennessee Court of
Criminal Appeals affirmed. State v. Whitaker, No. 03C01-9509-CC-00256, 1996 WL 600375
(Tenn. Crim. App. Oct. 15, 1996), perm. app. denied (Tenn. Feb. 8, 1999).
After unsuccessfully seeking state post-conviction and federal habeas relief, Whitaker filed
a habeas petition in the Morgan County Criminal Court, asserting in part that the trial court lacked
jurisdiction to sentence him as a Range 1, standard offender with eligibility for release after serving

No. 20-5872
-2thirty percent of his sentence because Tennessee Code Annotated § 39-13-523 requires child
rapists to serve one hundred percent of their sentences. The habeas court dismissed Whitaker’s
petition. The Tennessee Court of Criminal Appeals affirmed the denial of habeas relief but
remanded to the trial court for correction of the judgments to reflect that Whitaker must serve the
entirety of his forty-five-year sentence for his child rape convictions.

Whitaker v. Morgan,

No. E2007-02884-CCA-R3-HC, 2009 WT, 454256 (Tenn. Crim. App. Feb. 24, 2009),perm. app.
denied (Tenn. Aug. 17, 2009). The trial court entered corrected judgments on July 27, 2009.
OnApril 7, 2011, Whitaker filed a petition for post-conviction relief, claiming that the
State breached its promise that he would receive a sentence with a thirty percent release eligibility
when the judgments were corrected to require him to serve one hundred percent of his sentence.
After a hearing, the trial court denied relief because Whitaker’s petition was time-barred and
because his claims had been determined in his habeas case. The Tennessee Court of Criminal
Appeals affirmed.

Whitaker v. State, No. E2014-02240-CCA-R3-PC, 2016 WE 97608 (Tenn.

Crim. App. Jan. 7, 2016), perm. app. denied (Tenn. June 23, 2016).
In 2017, Whitaker filed another § 2254 habeas petition, asserting that the State breached
its promise that he would be sentenced as a Range I, standard offender with a thirty percent release
eligibility. Upon the respondent’s motion, the district court transferred Whitaker’s habeas petition
to this court to obtain authorization for its consideration. See 28 IJ.S.C. § 1631: In re Sims, 111
F.3d 45. 47 (6th Cir. 1997) (per curiam). Whitaker then moved this court for an order authorizing
the district court to consider a second or successive habeas petition. This court denied Whitaker’s
motion as unnecessary and remanded the case to the district court for consideration of his habeas
petition. In re Whitaker, No. 18-5700 (6th Cir. Feb. 25, 2019) (order). Upon remand, the district
court dismissed Whitaker’s habeas petition as untimely and declined to issue a certificate of
appealability. This timely appeal followed.
Whitaker now moves this court for a certificate of appealability. To obtain a certificate of
appealability, a petitioner must make “a substantial showing of the denial of a constitutional right.”
28 IJ.S.C, § 2253(c¥2).

Where the district court dismisses a habeas petition on procedural

No. 20-5872
-3 grounds, as here, a certificate of appealability should issue if the petitioner “shows, at least, that
jurists of reason would find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling.” Slack v. McDaniel, 529 IJ.S. 473. 484 (2000).
The Antiterrorism and Effective Death Penalty Act (AEDPA) establishes a one-year statute
of limitations for habeas petitions challenging state-court judgments. 28TJ.S.C. § 2244fd¥D. The
one-year limitations period typically runs from “the date on which the judgment became final by
the conclusion of direct review or the expiration of the time for seeking such review.”

Id.

§ 2244(d)(1)(A). The district court determined that the one-year limitations period for challenging
the corrected judgments entered on July 27, 2009, began to run on August 26, 2009, when
Whitaker’s thirty-day period for filing an appeal expired, see Tenn. R. App. P. 4(a), and therefore
ended on August 27, 2010. The statute of limitations is tolled for “[t]he time during which a
properly filed application for State post-conviction or other collateral review with respect to the
..

pertinent judgment or claim is pending.” 28 IJ.S.C. S 2244('d¥2T Whitaker’s petition for post-

— conviction relief filed on April 7, 2011, did not revive the already expired .limitations period. See
Vroman v. Brigano, 346 F.3d 598. 602 (6th Cir. 2003). Furthermore, Whitaker’s petition for post­
conviction relief was denied as time-barred and therefore was not “properly filed” for purposes of
§ 2244(d)(2). See Pace v. DiGuglielmo, 544 IJ.S. 408. 414 (2005). Reasonable jurists could not
debate the district court’s conclusion that Whitaker’s habeas petition filed on April 21, 2017, was
untimely under § 2244(d)(1)(A).
Nor could reasonable jurists debate the district court’s conclusion that Whitaker was not
entitled to equitable tolling.

AEDPA’s limitations period “is subject to equitable tolling in

appropriate cases.” Holland v. Florida, 560 IJ.S. 631.645 (2010). “Generally, a litigant seeking
equitable tolling bears the burden of establishing two elements: (1) that he has been pursuing his
rights diligently, and (2) that some extraordinary circumstance stood in his way.” Pace, 544 U.S.
at 418. “Equitable tolling is granted sparingly and is evaluated on a case-by-case basis, with the
petitioner retaining the ‘ultimate burden of persuading the court that he or she is entitled to

No. 20-5872
-4equitable tolling.’” Keeling v. Warden, Lebanon Corr. Inst., 672 F.3d 452. 462 (6th Cir. 2012)
(quoting Ata v. Scutt, 662 F.3d 726. 741 (6th Cir. 2011)).
Whitaker asserted that he was not served with copies of the corrected judgments when they
were entered on July 27, 2009, and did not learn of their entry until he requested copies of his
judgments on December 27, 2010. Whitaker was aware of the decision of the Tennessee Court of
Criminal Appeals remanding for correction of the judgments given that he filed a pro se petition
for rehearing of that decision two weeks later, on March 9, 2009. Yet Whitaker did not inquire
about the corrected judgments until more than a year and a half later. Whitaker also asserted that
the State did not announce its intent to no longer honor the plea agreement’s thirty percent release
eligibility until October 9, 2012. Whitaker failed to explain the significance of this date. In any
event, the State consistently maintained throughout Whitaker’s case that he was required to serve
the entirety of his sentence under Tennessee Code Annotated § 39-13-523. Whitaker failed to
demonstrate that he pursued his rights diligently or that an extraordinary circumstance stood in his
way.
Reasonable jurists could not debate the district court’s dismissal of Whitaker’s habeas
petition as untimely. Accordingly, this court DENIES Whitaker’s motion for a certificate of
appealability and DENIES as moot his motion for leave to proceed in forma pauperis on appeal.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX B
F ti<

5/25/2021

Whitaker v. Phillips | WestlawNext

WESTLAW
Whitaker v. Phillips
United States District Court, E,D. Tennessee.

July 1, 2020

Slip Copy

2020 WL 3578355

j'Approx. 5 pages}

2020 WL 3578355
Only the Westlaw citation is currently available.
United States District Court, E.D. Tennessee.

Jeffrey S. WHITAKER, Petitioner,
v.

Shawn PHILLIPS, Respondent.
No.: 3:i7-CV-i78-TAV-HBG
Filed 07/01/2020

Attorneys and Law Firms
Jeffrey S. Whitaker, Wartburg, TN, pro se.
John H. Bledsoe, III, Meredith Wood Bowen, Zachary L. Barker, Office of the
Attorney General, Nashville, TN, for Respondent.
MEMORANDUM OPINION
Thomas A. Varlan, UNITED STATES DISTRICT JUDGE
*1 Petitioner has pro se filed a petition for a writ of habeas corpus under 28
U.S.C. § 2254, challenging his confinement under state-court judgments of
conviction pursuant to a Roane County guilty plea [Doc. 1]. After reviewing the
parties' filings and the relevant state court record, the Court has determined that
the petition is untimely, Petitioner is not entitled to relief under § 2254, and no
evidentiary hearing is warranted. See Rules Governing § 2254 Cases, Rule 8(a)
and Schriro v. Landrigan, 550 U.S. 465, 474 (2007). Accordingly, the § 2254
petition will be DENIED, and this matter will be DISMISSED. Because the
petition is untimely, any amendment is futile and Petitioner's motion to amend
[Docs. 27, 31] will also be DENIED.
I. BACKGROUND
In February 1994, a Roane County grand jury indicted Petitioner for twenty-two
counts of rape of a child and four counts of aggravated sexual battery, relative to
six victims under the age of thirteen [Doc. 17-1 p. 3-8], On November 10, 1994,
the trial court accepted Petitioner's plea agreement, in which he agreed to plead
guilty to eight counts of rape of a child while the other eighteen charges were
dismissed [Doc. 17-1 p. 19-23], At the plea hearing, the State asserted that,
although Petitioner was a Range I standard offender, "in accordance with the law
that's provided for child rape, [his] sentence [was to be] serve[d] in its entirety"
and stated that it would recommend an overall sentence of forty-five years at
defendant's sentencing hearing [Doc. 17-2 p. 7]. Defense counsel stated that he
agreed with this understanding of the plea agreement [Id.].
At sentencing, the court imposed an effective sentence of forty-five years'
imprisonment and granted Petitioner accrued pretrial jail credits [Doc. 17-2 p. 4142], But, while the State indicated at the sentencing hearing that "[u]nder the
Child Rape Law" Petitioner's sentence must "be served 100 percent" [Doc. 17-2 p.
23],1 the written judgments provided that Petitioner was being sentenced as a
https://nextcorrectional.westlaw.com/Document/ld 1745790bc5b11 ea9e229b5f 182c9c44/View/FullText.html?listSource=Foldering&originationContext=...

1/6

vr

5/25/2021

Whitaker v. Phillips -| WestlawNext~

Range I Standard Offender with a thirty percent release eligibility date rather than
as a Child Rapist with a one-hundred percent release eligibility date [Doc. 17-1 p.
28-35]. Additionally, the judgments did not provide for pretrial jail credits [Id.].
Petitioner filed a direct appeal challenging his sentencing, arguing that the trial
court erred in sentencing him to forty-five years and ordering that some of his
sentences be served consecutively [Doc. 17-3]. The Tennessee Court of Criminal
Appeals ("TCCA") affirmed, finding that the trial court considered the appropriate
factors in determining Petitioner's sentence and holding that the record supported
the imposition of consecutive sentences [Doc. 17-5]. Petitioner then applied for
permission to appeal to the Tennessee Supreme Court ("TSC") [Doc. 17-6] but
was denied [Doc. 17-8].
*2 On April 5, 1999, Petitioner filed a petition for post-conviction relief in the trial
court in Roane County [Doc. 17-9 p. 1-10]. Petitioner claimed, inter alia, that his
plea was not knowing and voluntary, that he was coerced into his confession and
plea, and that his counsel was ineffective [Id.]. On August 17, 2001, the trial court
held an evidentiary hearing and thereafter denied the petition [Doc. 17-9 p. 59].
Petitioner appealed to the TCCA [Doc. 17-11], which affirmed the trial court,
finding that Petitioner had demonstrated neither that he received ineffective
assistance of counsel nor that his guilty plea was unknowing and involuntary [Doc.
17-13].
Petitioner did not file an appeal to the TSC, but rather, on March 17, 2004, he filed
a petition for a writ of habeas corpus in this district claiming that his counsel was
ineffective and that his sentence was excessive. Whitaker v. Morgan, No. 3:04-CV126, Doc. 2. The petition was ultimately denied, and a certificate of appealability
was not issued by the district court. No. 3:04-CV-126, Doc. 13. Petitioner's
application for a certificate of appealability to the Sixth Circuit was likewise denied.
No. 3:04-CV-126, Docs. 16, 18.
Shortly after filing his federal petition, Petitioner filed a petition for writ of habeas
corpus pursuant to Tenn. Code Ann. § 29-21-101 in Morgan County [Doc. 17-14 p.
5-25].2 He argued that his sentence was illegal because (1) the trial court did not
have jurisdiction to impose consecutive sentences and (2) the judgments provided
that Petitioner was eligible for release after serving thirty percent of his sentence,
rather than the one hundred percent service required by statute for child rapists
[Id.]. The State filed a motion to dismiss the petition [Id. at 117-21], which the
court granted [Id. at 122]. Petitioner appealed to the TCCA [Doc. 17-16], which
affirmed the dismissal. The TCCA determined that the absence of the child rapist
designation in the judgments was a clerical error that could be corrected under
Tennessee law and remanded for entry of corrected judgments [Doc. 17-18].
Approximately two weeks later, on March 9, 2009, Petitioner pro se filed a motion
for rehearing [Doc. 17-19], which was denied on March 12, 2009, both because
the court generally did not accept pro se filings by represented parties and
because Petitioner's motion did not raise issues "that [were] not considered by the
court in reaching its previous decision in this case" [Doc. 17-20]. Petitioner then
applied for permission to appeal to the TSC [Doc. 17-21], which was denied [Doc.
17-22],
The Roane County court entered corrected judgments on July 27, 2009 [Doc. 1723], These judgments included the child rapist designation and the corresponding
one-hundred percent service requirement but did not include Petitioner's accrued
https://nextcorrectional.westlaw.com/Document/ld1745790bc5b11ea9e229b5f182c9c44/View/FullText.html?listSource=Foldering&originationContext= ...

2/6

5/25/2021

Whitaker v. Phillips [WestlawNext

pretrial jail credits [Id.]. Additionally, the corrected judgments imposed community
supervision for life [Id.].
Next, on April 7, 2011, Petitioner filed a second post-conviction petition in Roane
County arguing that (1) the State breached the plea agreement when the
judgments were corrected to require one-hundred percent service, (2) the trial
court's imposition of consecutive sentences violated the plea agreement, and (3)
the imposition of community supervision for life in the corrected judgments
violated the plea agreement [Doc. 17-24 p. 3-12; Doc. 17-25 p. 3-22].3 The trial
court dismissed this petition as untimely, finding that no exceptions to the statute
of limitations applied and that Petitioner's claims related to his plea agreement and
the percentage of his sentence to be served had been previously litigated [Doc.
17-26 p. 27]. The court did, however, vacate the imposition of lifetime community
supervision in the corrected judgments [Id.].
*3 On appeal, the TCCA held that (1) the petition was clearly outside of the
statute of limitations and did not meet any of the requirements for reopening his
petition, (2) the correction of the clerical errors in his judgments did not retrigger
the statutory period for filing or entitle Petitioner to due process tolling, (3)
Petitioner's claim was not "later arising" because the record shows that the State,
the defense attorney, and the trial court all understood that the sentence would be
served at one hundred percent, (4) Petitioner's claim that he was not aware of the
corrected judgments until 2011 was not credible because the court had filed an
opinion discussing corrected judgments in February of 2009 and Petitioner had pro
se filed a motion for rehearing approximately two weeks later, and (5) even if
Petitioner's claims were reviewed on the merits, he would not be entitled to relief,
because the record demonstrates that the parties understood that Petitioner's
sentence would be served in its entirety [Doc. 17-30], Petitioner then applied for
permission to appeal to the TSC [Doc. 17-31], which was denied [Doc. 17-33].
On April 21, 2017, Petitioner filed the instant petition [Doc. 1] and shortly
thereafter filed an amended petition [Doc. 4]. The State filed a motion to transfer
Petitioner's petition to the Sixth Circuit as a successive petition [Docs. 10, 11],
which the Court granted [Doc. 14]. However, the Sixth Circuit determined that the
petition was not successive because the corrected judgments "chang[ed] the
substance of" Petitioner's sentence by requiring one-hundred percent service and
thus constituted a new judgment [Doc. 15 p. 4]. Thus, the Sixth Circuit held,
Petitioner did not require authorization before this Court could consider the instant
petition [Id.]. On remand, Respondent filed a response [Doc. 18], and Petitioner
replied [Doc. 25]. Petitioner then filed a motion for leave to amend [Doc. 27],
which Respondent opposed [Doc. 29]. Petitioner replied to Respondent's opposition
and filed an accompanying amendment [Docs. 30, 31].4 The matter is now ripe
for review.
II. LEGAL STANDARD
Federal habeas petitions pursuant to § 2254 are subject to a one-year statute of
limitations set out by the Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA"). 28 U.S.C. § 2244(d). Specifically, a petitioner has one year to file an
application from the latest of:
(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;

https://nextcorrectional.westlaw.com/Document/ld 1745790bc5b11ea9e229b5f182c9c44/View/FullText.html?listSource-Foldering&originationContext=...

3/6

5/25/2021

Whitaker v: Phillips | WestlawNext

(B) the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by
the Supreme Court, if the right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence.
28 U.S.C. § 2244(d). In most cases, subsection (A) provides the operative date
and the one-year limitations period begins to run on "the date on which the
judgment became final by the conclusion or direct review or the expiration of the
time for seeking such review." 28 U.S.C. § 2244(d)(1)(A); see Fed. R. Civ. P. 6(a)
(providing "the day of the act, event, or default from which the designated period
of time begins to run shall not be included").
However, the statute of limitations is tolled when "a properly filed application for
State post-conviction or other collateral review with respect to the pertinent
judgment or claim is pending." 28 U.S.C. § 2244(d)(2). An appeal is properly filed
when "its delivery and acceptance are in compliance with the applicable laws and
rules governing filingsArtuz v. Bennett, 531 U.S. 4, 8 (2000). To determine if
Petitioner's collateral attack was properly filed, the Court looks to how the state
courts treated it. Griffin v. Lindamood, No. 2:16-cv-188, 2017 WL 3974463, at *4
(E.D. Tenn. Sept. 6, 2017) (citing Freeman v. Page, 208 F.3d 572, 576 (7th Cir.
2000)). Federal proceedings, regardless of proper filing, do not toll the statute of
limitations. Duncan v. Walker, 533 U.S. 167, 181-82 (2001).
*4 The one-year limitations period for § 2254 petitions is also subject to equitable
tolling where appropriate. See Holland v. Florida, 560 U.S. 631, 649 (2010).
Petitioner is " 'entitled to equitable tolling' only if he shows '(1) that he has been
pursuing his rights diligently, and (2) that some extraordinary circumstance stood
in his way' and prevented timely filing." Id. (quoting Pace v. DiGuglielmo, 544 U.S.
408, 418 (2005)). This doctrine is applied sparingly by federal courts. Jurado v.
Burt, 337 F.3d 638, 642 (6th Cir. 2003).
III. ANALYSIS
The AEDPA one-year statute of limitations for Petitioner to challenge the corrected
judgments (entered on July 27, 2009) began on August 26, 2009, when
Petitioner's thirty-day period for filing an appeal expired. King v. Morgan, 807 F.3d
154, 159-60 (6th Cir. 2015); see Tenn. R. App. P. 4(a) (notice of appeal "shall be
filed ... within 30 days after entry of the judgment appealed from"). The AEDPA
statute of limitations thus expired on August 27, 2010, well before Petitioner filed
the instant petition for habeas corpus relief on April 18, 2017. As a result, the
petition, which was filed nearly seven years after the limitations period had
expired, is untimely.
Although state collateral proceedings can statutorily toll the limitations period
pursuant to § 2244(d)(2), Petitioner's second petition for post-conviction relief in
Roane County (filed on April 7, 2011), and the appellate proceedings related
thereto, did not toll the limitations period. As the Roane County trial court
concluded, and the TCCA affirmed on appeal, that state-court post-conviction
petition was not timely and thus not "properly filed" under Tennessee law.
Furthermore, that petition was filed after the AEDPA statute of limitations had
https://nextcorrectional. westlaw.com/Document/ld1745790bc5b11ea9e229b5f182c9c44/View/FuHText.html?listSource=Foldering&originationContext=...

4/6

5/25/2021

Whitaker v. Phillips | WestlawNext

already expired. See Vroman v. Brigano, 346 F.3d 598, 602-03 (6th Cir. 2003)
(holding that an untimely petition is not "properly filed," and that a petition cannot
restart an already-expired limitations period). For these reasons, the statute of
limitations was not statutorily tolled.
It was not equitably tolled either. To demonstrate that he is entitled to equitable
tolling, Petitioner must show that he was diligently pursuing his rights under §
2254 and some external factor prevented his timely filing. Holland, 560 U.S. at
649. He has not done so. Petitioner argues that he was prevented from timely
filing because (1) he was not served with copies of the corrected judgments when
they were entered and did not learn of their entry until 2011; (2) the state actively
misled him and concealed the entry of the corrected judgments by "continuing to
honor the 30% release eligibility until October 9, 2013"; and (3) the post­
conviction court was untimely in its handling of Petitioner's post-conviction petition
[Doc. 25 p. 9]. But the TCCA found that Petitioner's assertion that he did not know
of the corrected judgments until 2011 was not credible given its opinion
remanding for entry of the judgments and Petitioner's subsequent motion for
rehearing. Even accepting this assertion as true, Petitioner waited six years after
he supposedly learned of the corrected judgments—and nearly four years after he
claims the state ceased honoring the thirty percent release eligibility—to file his
federal petition.5 As to Petitioner's final claim, the timeliness of the state court's
decision with respect to his post-conviction petition had no bearing on Petitioner's
ability to file his federal petition. Overall, Petitioner has not shown how any of
these circumstances prevented him from timely filing his federal petition. For these
reasons, the Court finds that Petitioner is not entitled to equitable tolling of the
limitations period.
IV. CONCLUSION
*5 In sum, because the instant petition was'filed after the expiration of the
limitations period, and because the limitations period was not tolled, the petition is
untimely. Accordingly, Petitioner's petition for a writ of habeas corpus [Doc. 1] will
be DENIED, and this action will be DISMISSED. Because the petition is untimely,
any amendment is futile and Petitioner's motion to amend [Docs. 27, 31] will
likewise be DENIED.
V. CERTIFICATE OF APPEALABILITY
The Court must now consider whether to issue a certificate of appealability
("COA") should Petitioner file a notice of appeal. Under 28 U.S.C. § 2253(a) and
(c), a petitioner may appeal a final order in a habeas proceeding only if he is
issued a COA, and a COA may only be issued where a Petitioner has made a
substantial showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2).
When a district court denies a habeas petition on a procedural basis without
reaching the underlying claim, a COA should only issue if "jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling." Slack v. McDaniel, 529 U.S. 473,
484 (2000). Here, reasonable jurists would not disagree that Petitioner's petition is
untimely. Accordingly, a COA SHALL NOT ISSUE.
AN APPROPRIATE ORDER WILL ENTER.
AH Citations
Slip Copy, 2020 WL 3578355
https://nextcorrectional.westlaw.com/Document/ld1745790bc5b11 ea9e229b5f182c9c44/View/FullText.html?listSource=Foldering&originationContext=...

5/6

Whitaker v. Phillips | WestlawNext

5/25/2021

Footnotes
1

In addition to the Prosecutor's statements, Petitioner's counsel made
several statements that vaguely indicated he understood the sentence
was to be served at one-hundred percent [see Doc. 17-2 p. 31 ("I think
the very least the Court could do under the law would be to sentence
him to 15 years, day for day, no parole, no good and honor time....
Fifteen years that he has to serve day for day; no credits, none.") ]. The
court also noted during sentencing that "of course that is a sentence to
serve, as you already know. There's no portion with that." [Id. at 42].

2

In this filing, Petitioner indicated that it was his third application for
habeas corpus in the Morgan County Criminal Court [Doc. 17-14 p. 7].

3

In addition to these filings, Petitioner also filed a motion to correct an
illegal sentence on November 8, 2013 as well as a later amended motion
on April 13, 2016. He likewise filed a motion to enforce his plea
agreement on June 25, 2014.

4

It appears that Petitioner has again filed for permission to file a second
or successive petition with the Sixth Circuit [Doc. 32].

5

Although it remains unclear on what grounds Petitioner alleges that the
State first evinced an intent to cease honoring the thirty percent release
eligibility in October of 2013, the Court notes that any argument that the
corrected judgments were concealed from him until this date is
inconsistent with Petitioner's own admission that he knew of the
judgments by at least 2011.

End of
Document

WestlawNext. @ 2021 Thomson Reuters

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

THOMSON MUTCftS
Thomson Reuters is'-hofproviding legal advice

https://nextcorrectional.westlaw.com/Document/ld1745790bc5b11ea9e229b5f182c9c44A/iew/FullText.html?listSource=Foldering&originationContext=...

6/6

APPENDIX C

Whitaker v. State | WestlawNext

•

Page l.'of 13

WESTLAW
Whitaker v. State
Court of Criminal Appeals of Tennessee, AT KNOXVILLE.

January 7, 2016

Slip Copy

2016 WL 97608 (Approx. 9 pages)

2016 WL 97608
Only the Westlaw citation is currently available.
SEE RULE 19 OF THE RULES OF THE COURT OF CRIMINAL APPEALS RELATING TO
PUBLICATION OF OPINIONS AND CITATION OF UNPUBLISHED OPINIONS.
Court of Criminal Appeals of Tennessee,
AT KNOXVILLE.

Jeffrey S. Whitaker
v.

State of Tennessee
No. E2014-02240-CCA-R3-PC
August 18, 2015 Session
Filed January 7, 2016
Application for Pennission to Appeal Denied by Supreme Court June 23, 2016.
Appeal from the Criminal Court for Roane County, No. 10920, E. Eugene
Eblen, Judge
Attorneys and Law Firms
Cashauna C. Lattimore, Knoxville, Tennessee, for the Petitioner, Jeffrey S.
Whitaker.
Robert E. Cooper, Jr., Attorney General and Reporter; Nicholas W. Spangler,
Assistant Attorney General; Russell Johnson, District Attorney General; and Frank
A. Harvey, Assistant District Attorney General, for the Appellee, State of
Tennessee.

Opinion
CAMILLE R. McMULLEN, J., delivered the opinion of the court, in which JAMES
CURWOOD WITT, JR., and TIMOTHY L. EASTER, JJ., joined.
OPINION
CAMILLE R. McMULLEN, J.
*1 The Petitioner, Jeffrey S. Whitaker, appeals the Roane County Criminal Court's
dismissal of his second petition for post-conviction relief. On appeal, the Petitioner
argues that the one-year statute of limitations should be tolled based on the laterarising claims doctrine and the discovery rule of contract law, that his plea
agreement was breached when his judgments were corrected to show a release
eligibility of 100% and when the trial court imposed partially consecutive
sentences, and that the post-conviction court erred in failing to apply the doctrine
of judicial estoppel against the State. Upon review, we affirm the judgment of the
post-conviction court.
On November 10, 1994, the Petitioner pled guilty to eight counts of child rape in
the Roane County Criminal Court, and the State agreed to dismiss the remaining
eighteen counts involving child rape and aggravated sexual battery. See State v.
Jeff Whitaker, No. 03C01-9509-CC-00256, 1996 WL 600375, at *1-2

https://nextcorrectional.westlaw.com/Document/Il Id3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v. State | WestlawNext

Page 2 of 13 .

(Tenn.Crim.App. Oct. 15, 1996), perm. app. denied (Tenn. Feb. 8, 1999). The
written plea agreement stated that the Petitioner was pleading guilty to eight
counts of child rape in exchange for the following conditions:
1. The State would recommend a forty-five-year sentence (a cap);
2, The trial court would determine the Petitioner's sentence at a later hearing;
3. The Petitioner would be sentenced as a "Range I, Standard" offender; and
4. Counts 4-10; 12-15; 19-22; and 24-26 of the indictment would be dismissed.
At the guilty plea hearing, the State summarized the facts underlying the
Petitioner's guilty plea:
With regard to all counts upon which pleas are being entered, we would
stipulate that the offenses occurred between July and December of 1993
at the residence of the defendant located in Roane County. In Counts 1,
2 and 3, during that time period, we would stipulate that the defendant
engaged in sexual penetration of [A.D.],1 a child under the age of 13.
In Count 11 that he engaged in unlawful sexual penetration of [V.B.], a
child under the age of 13. In Counts 16 through 18, on three occasions
he engaged in unlawful sexual penetration of [L.G.], a child under the
age of 13. And in Count 23, likewise, during the same time period, he
engaged in unlawful sexual penetration of [B.S.], a child under the age
of 13.
The State then made the following statement to the trial court:
Your Honor, our recommendation first is that the defendant would fall in
the Standard Range One Category. We will have a further sentencing
hearing on the 27 th day of February. At which time either side can
present evidence to Your Honor concerning mitigating and aggravating
factors. The State will recommend a sentence of 45 years at the
conclusion of that hearing. Of course the ultimate sentence will be up to
Your Honor. And in accordance with the law that's provided for child
rape, the sentence will be to serve in its entirety.
The trial court then accepted the Petitioner's guilty plea to the eight counts of child
rape.
*2 At the March 20, 1995 sentencing hearing, the State made the following
assertions to the court after the close of proof:
Your Honor, by way of a starting point in this case, the defendant has
entered guilty pleas in eight counts of child rape. That sentence, of
course, is to be served by law. Under the Child Rape Law it is to be
served 100 percent. As part of the plea agreement, the State agreed
that it would recommend 45 years. The Court is to determine the total
sentence within the appropriate range, and whether it is concurrent or
consecutive to the Anderson County sentence.
Later, the State and defense counsel made the following arguments regarding the
Petitioner's sentence:
[The State]: Your Honor has the decision of sentencing the defendant here on
eight counts of child rape. The sentence range is a Range One Offender, is

https://nextcorrectional.westlaw.eom/Document/11 Id3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

-Whitaker v. State | WestlawNext

Page 3 of 13

between 15 to 25 years on each one of those sentences. As indicated as part of
the plea agreement, the State is simply recommending 45 years....
Defense Counsel: May the Court, please, I don't think there's any question about
that. I think the very least the Court could do under the law would be to sentence
him to 15 years, day for day, no parole, no good and honor time. I know you
often times read things about people getting parole, getting out of prison. It's not
going to happen to [the Petitioner], Fifteen years that he has to serve day for
day, no credits, none.

...This is a 32-year old man.... [I]f the court gave him the minimum sentence, he
could be 47 years old before he was out-or 46. I guess he's been in about a year
or so now, so that would be-with credit for that he'd be 46 or 47, at the very
minimum the Court could do.
...I don't know necessarily that... we believe that a 15-year sentence is the
appropriate sentence. I'm not going to suggest that. I'm not going to suggest
that. I'm just going to say that I think that 45 years is too much, [a]nd that
probably somewhere between [15] and 45 years is the appropriate sentence. We
could ask for a 15-year sentence. As an advocate, I say that, understanding the
Court has within that 30 year span, the ability to make ... consecutive [or]
concurrent. And there is no question, also, that these can be consecutive by
statute. There’s no question about that. And I think the Court would have to find
by a preponderance of the evidence that certain factors exist, one of which is that
has to do with sexual abuse of minor children. And I don't think there's any
question about that. So that these could be consecutive sentences. That is under
the Section 40-35-115. That is Number 5, that it involved-two or more statutory
offenses involved in the sexual abuse of a child. It is within your power to make
these consecutive. We'd ask the Court to look at the entire case.
After hearing the parties' arguments, the trial court imposed fifteen-year sentences
for each of the eight counts and ordered counts 1, 11, and 16 served consecutively
to one another for an effective sentence of forty-five years.2 See id. The court
specifically noted that the fifteen-year sentences were "to serve, as you already
know" and that there was "no portion with that." Although the State, defense
counsel, and the trial court stated that the fifteen-year sentences were to be
served at 100% pursuant to the "child rape law," the original judgments entered
reflect a release eligibility of 30% for the convictions. On direct appeal, the
Petitioner asserted that the trial court erred in ordering three of the sentences
served consecutively, and this court affirmed the judgments of the trial court. See
id. at *4.
*3 On April 5, 1999, the Petitioner filed a post-conviction petition, asserting that
his plea was involuntary and that he received ineffective assistance of counsel. See
Jeffrey Whitaker v. State, No. E2001-02399-CCA-R3-PC, 2003 WL 21276125, at
*1 (Tenn.Crim.App. June 3, 2003). The State filed a response, asserting the
following:
On March 20, 1995, Petitioner was sentenced to 15 yrs. On each of eight Counts
with two to run consecutive, for a total effective sentence of 45 yrs, at 30%. The
Department of Corrections first rejected this 30% classification, but later notified
all parties that this sentence would indeed be honored, thereby giving Petitioner
"the benefit of his bargain."

https://nextcorrectional.westlaw.com/Document/Il Id3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v. State | WestlawNexl

....Page 4 of 13

Petitioner's] trial counsel provided advice and service to petitioner well beyond
that required by relevant case law. Petitioner was facing 21 Counts of child rape,
each subject to a minimum penalty of 15 years and maximum of 25 years in
Range One. (Petitioner knew that the State would request the Court to run only
two sentences consecutive. See Guilty Plea set attached as Exhibit No. 1)[.]
Petitioner had clearly given non-custodial incriminating statements regarding
most or all victim[s'] allegations. The sentencing statutes required service of all
sentences imposed. Counsel was able to negotiate Range One, Standard
sentences. This means service at 30% prior to release eligibility. There were
multiple child victims available to give evidence of Petitioner's] crimes. His own
daughter had made rape allegations against him. Petitioner [’s] counsel was able
to negotiate Guilty Pleas on only eight of 26 counts pending against Petitioner.
This outcome avoided potential damage to very young child victims during
lengthy litigation. The agreed sentences were set at the minimum of 15 yrs. on
each with the Court to decide the issue of concurrent/consecutive sentencing. His
outcome of 45 years at 30% under his circumstances speaks volumes about the
competence of his trial counsel.
The Petitioner then filed a "Rebuttal to State's Response to Petition for Post
-Conviction Relief." In it, the Petitioner argued that his sentence was the result of
ineffective assistance of trial counsel:
The petitioner did not receive "the benefit of his bargain" but rather was
lulled into believing that his pretrial statement had sealed his fate and
that there was no other alternative. And, in spite of his Range I 30%
classification, it is commonly known among inmates that the Parole
Board does not parole sex offenders. Therefore, even if petitioner is
fortunate enough to receive all of his sentence reduction credits, he will
stiil be required to serve thirty (30) calendar years before expiring his
term of imprisonment.
He also argued that trial counsel was ineffective in allowing the trial court to
sentence him to consecutive sentences without requiring proof of the aggravating
circumstances by a preponderance of the evidence:
[T]he State, through their response, has continually praised counsel's
ability to negotiate Range I, Standard sentences on only eight (8)
counts of twenty-six (26) counts pending against the petitioner and
considers the outcome of 45 years at 30% to be a great
accomplishment on the part of counsel. Yet at sentencing, counsel
allowed the court to sentence petitioner consecutively based entirely
upon enhancement factors which is clearly in direct contravention of the
1989 Sentencing Reform Act.....
*4 At the evidentiary hearing, trial counsel testified that he discussed with the
Petitioner that "the minimum sentence on child rape was 15 years, and that that
[was] served at 100%, with no credits for good time or any other time." He added,
"I explained to [the Petitioner] that there was no parole; that [the sentence] was to
be served at 100%; that the minimum sentence is fifteen years." The Petitioner
testified that trial counsel never reviewed the plea agreement with him before
asking him to sign it. Following this hearing, the post-conviction court denied post­
conviction relief, finding that the Petitioner's guilty pleas were voluntary and
knowing and that trial counsel had rendered effective assistance. See id. at *3. On
appeal, this court affirmed the denial of post-conviction relief. See id. at *4-5.

https://nextcorrectional.westlaw.com/Document/IlId3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v. State | WestlawNext

Page 5 of 13-

Thereafter, the Petitioner filed a petition for habeas corpus relief3 in the Morgan
County Criminal Court, arguing that he was sentenced illegally and that the trial
court erred in not applying the doctrine of judicial estoppel against the State. See
Jeffrey S. Whitaker v. Morgan, No. E2007-02884-CCA-R3-HC, 2009 WL 454256,
at *1 (Tenn.Crim.App. Feb. 24, 2009), perm. app. denied (Tenn. Aug. 17, 2009).
After appointing counsel and conducting a hearing on the petition, the habeas
corpus court dismissed the petition, finding that the Petitioner had not established
that the judgments were void because the failure to place a check in the child rapist
box was a clerical error and that the Petitioner failed to establish that his sentences
had expired. See id.
On appeal, the Petitioner argued that the trial court lacked jurisdiction to sentence
him as a Range I, standard offender with a release eligibility of 30% because this
sentence was contrary to Tennessee Code Annotated section 39-13-523, requiring
a release eligibility of 100% for child rapists, and that any ambiguities in the plea
agreement should be construed in his favor. See id. at *2. He also asserted that the
State should have been precluded from arguing that he did not receive a sentence
providing for an early release date after the State claimed during his post­
conviction case that he received the benefit of his bargain when he received a
sentence with a 30% release eligibility. See id. at *3.
In considering these issues, this court meticulously evaluated the appellate record:
The eight judgments in the record reflect that the petitioner was sentenced to
fifteen years as a Range I, standard offender for each conviction. The box for
"child rapist" is not checked on any of the eight judgments, although Tennessee
requires a child rapist to serve a sentence in its entirety, "undiminished by any
sentence reduction credits such person may be eligible for or earn." T.C.A. § 39
-13-523(b) (Supp.1994) (amended 1998, 2007). The record reflects that other
counts against the petitioner for child rape and aggravated sexual battery were
dismissed pursuant to the plea agreement, on which the petitioner was labeled a
"Range I, standard" offender....
The guilty plea acceptance hearing transcript reflects that the parties understood
the agreement involved a sentence of forty-five years to be served "in its
entirety," even though the petitioner was a Range I offender. The sentencing
hearing transcript reveals the State began its argument for a sentence of fortyfive years at one hundred percent. The transcript shows defense counsel stated
that the minimum sentence available to the trial court was a fifteen-year
sentence "day for day, no parole, no good and honor time" and that the petitioner
would have to serve the sentence with no credits and would not receive parole.
The sentencing transcript shows the trial court imposed a "sentence to serve"
consisting of three consecutive fifteen-year sentences, with the other sentences
running concurrently.
*5 Id. at *1. As to the Petitioner's claim that his sentences were illegal, this court
held that he was not entitled to relief:
[T]he petitioner has not met his burden to demonstrate that the sentences
actually imposed were illegal. Review of the sentencing hearing transcript reveals
that the State, defense counsel, and the court stated that the fifteen-year
sentences were to be served at one hundred percent in compliance with the "child
rape law." Although the trial court stated that "the sentence will have to be 15
years on each count, as a Range I offender, by law," the trial court imposed, in
its next sentence, three consecutive sentences and said that each was a
"sentence to serve. There's no portion with that." The judgments, in contrast, do

https://nextcorrectional.westlaw.com/Document/IlId3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v. State | WesllawNexl

Page 6 of 13

not include the one hundred percent service time. Where the transcript and
judgments conflict, the transcript controls. State v. Davis, 706 S.W.2d 96, 97
(Tenn.Crim.App.1985) (citing State v. Zyla, 628 S.W.2d 39, 42
(Tenn.Crim.App.1981)).
Id. at *2. As to the Petitioner's judicial estoppel argument, the trial court noted that
the State "respond[ed] to this claim in a footnote, in which it states that the
State’s post-conviction pleading included the 'erroneous statement' that the
petitioner received the benefit of his sentencing bargain." Id. at *3. This court also
held that the Petitioner was not entitled to relief on this issue:
[T]he record does not show that the petitioner's judgments are void. While we
acknowledge that the judgments should have been corrected earlier, the
petitioner's allegations of judicial estoppel require examination outside the record.
See Taylor v. State, 995 S.W.2d at 83 (holding that "[a] voidable conviction or
sentence is one which is facially valid and requires the introduction of proof
beyond the face of the record or judgment to establish its invalidity.")[.] Because
the petitioner alleges a claim for relief from a voidable judgment, this is not a
cognizable claim for habeas corpus relief, which may only be granted for void
judgments. The petitioner is not entitled to relief.
Id. This court affirmed judgment of the habeas corpus court but remanded the case
for correction of the judgments4 to reflect a release eligibility of 100% because the
Petitioner had been convicted of child rape. See id. Approximately two weeks after
this court filed its opinion in the habeas corpus case, the Petitioner filed a pro se
petition for rehearing, despite the fact that he was represented by counsel.5 After
determining that the Petitioner had raised no issues that had not been considered
by the court in reaching its decision, this court denied the motion three days later.
The Tennessee Supreme Court denied permission to appeal a few months later. See
id. at *1.
*6 On April 7, 2011, the Petitioner filed a second post-conviction petition pro se,
which is the subject of this appeal. In this petition, he alleges that he has laterarising claims. First, he argues that the State breached its promise that he would
receive a sentence with a 30% release eligibility pursuant to the terms of his plea
agreement, and then denied making such a promise in a later proceeding, which
resulted in entry of corrected judgments reflecting sentences with 100% release
eligibility. Second, he contends that his plea agreement was breached when the
judgments were corrected to reflect three consecutive fifteen-year sentences at
100% release eligibility. Third, he argues that the terms of the plea agreement
were breached when the corrected judgments required him to serve a sentence of
community supervision for life pursuant to Tennessee Code Annotated section 39
-13-524 upon the expiration of his sentences.
On June 17, 2011, the Petitioner filed a supplement containing authorities in
support of his second post-conviction petition. On December 22, 2011, the post­
conviction court appointed counsel for the Petitioner. However, on April 9, 2012,
the Petitioner, pro se, filed an amended petition for post-conviction relief and
memorandum of law, alleging that the trial court violated Article I, section 25 of the
Tennessee Constitution when it accepted and imposed a sentence pursuant to an
agreed upon sentencing cap. On June 4, 2012, appointed counsel adopted the pro
se post-conviction petition and the amended petition.
On April 2, 2013, the Petitioner filed a pro se "Motion for Mandatory Answer,"
asking for an order directing the State to respond to his post-conviction petition.
On June 12, 2014, the State filed a "Response to Post-Conviction Petition,"

https://nextcorrectional.westlaw.com/Document/IlId3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v. State | WestlawNext

Page 7 of 13

contending that the Petitioner filed his petition outside the one-year statute of
limitations, that none of the exceptions to the statute of limitations applied, and
that a prior petition for writ of habeas corpus attacking the merits of the convictions
had been resolved on the merits.
On June 25, 2014, the Petitioner filed a pro se "Motion to Enforce Plea Agreement"
and accompanying memorandum of law, asking the post-conviction court to enforce
the plea agreement, which he claimed entitled him to fifteen-year sentences for
each of the eight counts to be served concurrently with one another and
concurrently with the Anderson County sentences, or to vacate the plea agreement
and restore the parties to the status they held prior to entry of the plea agreement.
Also on June 25, 2014, the Petitioner filed a pro se "Reply in Opposition of State’s
Response to Petition for Post Conviction Relief." In it, the Petitioner argued, inter
alia, that he had a later-arising claim because the plea agreement was not
breached until the judgments were corrected to reflect a release eligibility of 100%,
that his claims regarding the consecutive nature of his sentences did not arise until
after the corrected judgments were entered, that his claims were not previously
determined because neither the habeas corpus court nor the Tennessee Court of
Criminal Appeals had determined whether the 30% release eligibility was an
element of the plea agreement, and that despite the State’s claims to the contrary,
the corrected judgments did not show "the true state of [the] plea agreement."
On June 30, 2014, the trial court conducted a hearing on the second post­
conviction petition. No proof was presented, although the trial court heard
arguments from both parties. Petitioner's counsel6 stated that she had received
copies of the Petitioner's pro se filings and asserted that the issues raised in those
filings were appropriate. Although she acknowledged that the petition had been
filed outside the statute of limitations, she claimed, citing Sands v. State, 903
S.W.2d 297 (Tenn.1995), and Burford v. State, 845 S.W,2d 204 (Tenn.1992), that
the statute of limitations should be equitably tolled because the Petitioner's grounds
for relief arose after the expiration of the statute of limitations period. She
explained that the Petitioner's judgments were corrected on July 27, 2009, to show
a release eligibility of 100%, following the unsuccessful appeal of his habeas corpus
case, and that the Petitioner did not receive copies of the corrected judgments until
January 2011, which was well beyond the statute of limitations period.
Consequently, she argued that a strict application of the statute of limitations would
deny the Petitioner a reasonable opportunity to present his claims.
*7 As to the merits of the petition, counsel argued that the State breached the
plea agreement when the judgments were corrected to show a release eligibility of
100% because the plea agreement classified the Petitioner as a Range I, standard
offender. She stated that although the Tennessee Court of Criminal Appeals
remanded the case for entry of corrected judgments in the habeas corpus case
because it believed the 30% release eligibility was a clerical error, she referenced
the State’s July 2, 2001 response to the Petitioner's first post-conviction petition,
wherein the prosecutor stated that the Petitioner received a sentence of forty-five
years with a release eligibility of 30%, that the Department of Correction initially
honored the sentence containing a 30% release eligibility, and that the Petitioner
received the benefit of his bargain. She said that despite these assertions, the
State later changed its position during the Petitioner's habeas corpus case and
argued that the 30% release eligibility was a clerical error, which resulted in the
entry of the corrected judgments reflecting a release eligibility of 100%. Counsel
claimed, citing New Hampshire v. Maine, 532 U.S. 742, 749 (2001), that the
doctrine of judicial estoppel should preclude the State from using one argument in
one phase of the case and using a different argument in a later phase of the case

https://nextcorrectional.westlaw.com/Document/Il Id3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v. State | WestlawNext

Page 8 oP13

simply because its interests have changed. Moreover, citing Santobello v. New
York, 404 U.S. 257, 262 (1971), she argued that the Petitioner bargained for and
received a 30% release eligibility, and the State breached this agreement when the
judgments were corrected to reflect a 100% release eligibility. She also claimed the
Petitioner bargained for the Roane County sentences to be served concurrently to
one another and that the State breached the plea agreement when the sentences
were ordered to be served consecutively to one another. For these reasons, counsel
argued that the post-conviction court should allow the Petitioner to withdraw his
guilty plea and return the parties to the positions they had prior to the plea
negotiations.
The State argued that the Petitioner's second post-conviction petition had been
filed outside the one-year statute of limitations and that none of the exceptions to
the statute of limitations applied. The State conceded that because the Petitioner's
offenses fell "outside of the July 1st, [19]96 date set out in the applicable statute,"
the Petitioner should not have been placed on community supervision for life.
However, the State argued that the remaining issues in the second petition were
not late-arising because these issues had already been addressed by the trial court
and the Tennessee Court of Criminal Appeals in the Petitioner's habeas corpus case.
As to the issue regarding the manner of service of the sentences, the State
asserted that the issue of whether the sentences would be served concurrently or
consecutively was not included in the plea agreement and that the trial court made
the decision to impose partially consecutive sentences after a sentencing hearing.
As to the claim that the plea agreement was breached, the State asserted that the
transcript of the sentencing hearing established that the trial court, the State, and
defense counsel stated that the Petitioner's sentence had a release eligibility of
100%. The State explained that the district attorney's office simply "got it wrong"
in the first post-conviction case when it asserted that the Petitioner's release
eligibility was 30%, and the State later realized its mistake after reviewing the
record, and the judgments were corrected. It stated that the Petitioner was not
"wanting the benefit of the bargain that he got," he was "wanting] the benefit of
that ... clerical mistake that was corrected." Finally, the State argued that the
Petitioner was not entitled to equitable tolling because the corrected judgments
were filed in 2009, and the Petitioner's attorney at the time was made aware of the
court's opinion regarding the correction of the judgments. At the conclusion of the
hearing, the post-conviction court held that the Petitioner was not subject to
lifetime supervision but that all other claims for post-conviction relief were denied.
On July 15, 2014, the Petitioner filed a premature notice of appeal which was
considered timely pursuant to Tennessee Rule of Appellate Procedure 4(d). By
written order entered on November 12, 2014, the post-conviction court ordered
that the imposition of the lifetime supervision provision on the corrected judgments
be "lifted" but denied post-conviction relief as to the remaining claims because the
petition was time-barred and because the claims had been previously determined in
the Petitioner’s habeas corpus case.
ANALYSIS
The Petitioner initially asserts that the one-year statute of limitations for post­
conviction petitions should be tolled based on the later-arising claims doctrine, see
Whitehead v. State, 402 S.W.3d 615, 623 (Tenn.2013); Burford, 845 S.W.2d at
208, and the discovery rule of contract law, see Pero's Steak & Spaghetti House v.
Lee, 90 S.W.3d 614, 621 (Tenn.2002); Foster v. Harris, 633 S.W.2d 304, 305
(Tenn.1982). He contends that his plea agreement was breached when his
judgments were corrected to show a release eligibility of 100% and when the trial
court imposed partially consecutive sentences resulting in an effective sentence of

https://nextcorrectional.westlaw.com/Document/Il Id3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker V. State | WestlawNext

Page 9 of 13

forty-five years. See State v. Mellon, 118 S.W.3d 340, 346 (Tenn.2003). The
Petitioner also argues that the State should be judicially estopped from arguing
that the 30% release eligibility was merely a clerical error on the original
judgments entered in his case when it argued during his first post-conviction case
that the 30% release eligibility was a bargained-for element of the plea agreement.
See New Hampshire, 532 U.S. at 749; Marcus v. Marcus, 993 S.W.2d 596, 602
(Tenn.1999); Cardin v. Campbell, 920 S.W.2d 222, 223-24 (Tenn.Ct.App.1995).
We conclude that the Petitioner is not entitled to relief because this is the
Petitioner's second post-conviction petition, because this case does not require due
process tolling, and because the claims in this petition have been previously
determined.
*8 Post-conviction relief is only warranted when a petitioner establishes that his or
her conviction or sentence is void or voidable because of an abridgement of a
constitutional right. T.C.A. 40-30-103. The Post-Conviction Procedure Act
"contemplates the filing of only one (1) petition for post-conviction relief," and a
petitioner may not file more than one post-conviction petition "attacking a single
judgment." Id. § 40-30-102(c). If a prior petition has been resolved on the merits
by a court of competent jurisdiction, any second or subsequent post-conviction
petition shall be summarily dismissed. Id. "A petitioner may move to reopen a post­
conviction proceeding that has been concluded, under the limited circumstances set
out in § 40-30117." Id.
A person in custody under a sentence of a court of this state must petition for
post-conviction relief within one year of the date of the final action of the highest
state appellate court to which an appeal is taken or, if no appeal is taken, within
one year of the date on which the judgment becomes final. Id. § 40-30-102(a).
"The statute of limitations shall not be tolled for any reason, including any tolling or
saving provision otherwise available at law or equity." Id. Moreover, "[tjime is of
the essence of the right to file a petition for post-conviction relief or motion to
reopen established by this chapter, and the one-year limitations period is an
element of the right to file the action and is a condition upon its exercise." Id. If it
plainly appears on the face of the post-conviction petition that the petition was filed
outside the one-year statute of limitations or that a prior petition attacking the
conviction was resolved on the merits, the trial court must summarily dismiss the
petition. Id. § 40-30-106(b). In addition, "[i]f, on reviewing the petition, the
response, files, and records, the court determines conclusively that the petitioner is
entitled to no relief, the court shall dismiss the petition." Id. § 40-30-109(a)
(2006).
Tennessee Code Annotated section 40-30-102(b) provides three exceptions to the
statute of limitations for petitions for post-conviction relief: (1) claims based on a
final ruling of an appellate court establishing a constitutional right not recognized as
existing at the time of trial and given retroactive effect by the appellate courts; (2)
claims based upon new scientific evidence establishing that the petitioner is actually
innocent of the conviction offense; and (3) claims seeking relief from a sentence
that was enhanced because of a previous conviction and the previous conviction
was later held to be invalid. Id. §§ 40-30—102(b)(l)-(3), — 117(a)(l)-(3)
(establishing the same requirements for reopening a post-conviction petition).
As previously stated, the Post-Conviction Relief Act contemplates the filing of one
petition for post-conviction relief, and this is the Petitioner's second post-conviction
petition. He does not dispute that it was filed well outside the statute of limitations.
In addition, it is clear that none of the exceptions to the one-year statute of

https://nextcorrectional.westlaw.com/Document/IlId3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v. State fWestlawNext ^

Page 10'of 13

limitations are applicable and that the Petitioner did not meet the requirements for
reopening a post-conviction petition.
Nevertheless, due process concerns may toll the statute of limitations for post­
conviction relief. The Tennessee Supreme Court recently clarified the standard for
due process tolling, holding that a post-conviction petitioner is entitled to tolling of
the statute of limitations upon a showing "(1) that he or she has been pursuing his
or her rights diligently, and (2) that some extraordinary circumstance stood in his
or her way and prevented timely filing.'' Bush v. State, 428 S.W.3d 1, 22
(Tenn.2014) (citing Whitehead, 402 S.W.3d at 631). The court explained that
pursuing one's rights diligently " 'does not require a prisoner to undertake repeated
exercises in futility or to exhaust every imaginable option, but rather to make
reasonable efforts [to pursue his or her claim].' " Id. (quoting Whitehead, 402
S.W.3d at 631). However, it stressed that due process tolling " 'must be reserved
for those rare instances where—due to circumstances external to the party's own
conduct—it would be unconscionable to enforce the limitation period against the
party and gross injustice would result.' " Id. (quoting Whitehead, 402 S.W.3d at
631-32). The court also identified three circumstances in which due process
required a tolling of the statute of limitations: (1) when the claim for relief arises
after the statute of limitations has expired; (2) when a prisoner's mental
incompetence prevents him or her from complying with the statute of limitations;
and (3) when a prisoner has been misled by attorney misconduct. Id. at 23 (citing
Whitehead, 402 S.W.3d at 623-24). "The question of whether the post-conviction
statute of limitations should be tolled is a mixed question of law and fact that is ...
subject to de novo review." Id. at 16 (citing Smith v. State, 357 S.W.3d 322, 355
(Tenn.2011)); Whitehead, 402 S.W.3d at 621.
*9 At first glance; this case could be considered one in which the grounds for
overturning the conviction arose after the expiration of the one-year statute of
limitations. The Petitioner asserts that he did not discover the July 29, 2009
corrected judgments until January 2011, which is when he claims the statute of
limitations should have begun to run, and that he diligently filed the instant post­
conviction petition on April 7, 2011. However, as noted by the State, this court has
consistently held that the correction of a clerical error on a judgment of conviction
"does not re-trigger the statutory period for filing a petition for post-conviction
relief." Lonnie Jones v. State, No. W2001-00741-CCA-R3-PC, 2001 WL 1516977,
at *2 (Tenn.Crim.App. Nov. 21, 2001); Alan Hall v. State, No. E2000-01522-CCA
-R3-PC, 2001 WL 543426, at *3 (Tenn.Crim.App. May 23, 2001) (holding that the
judgment became final after entry of the original judgment of conviction and that
the entry of the corrected judgment, showing that the petitioner would serve 100%
of his sentence in confinement rather than 30% as was erroneously reflected on the
original judgment, did not give the petitioner an additional year in which to file a
petition for post-conviction relief); Kenneth J. Hall v. State, No. 03C01-9609-CR
-00342, 1998 WL 208080, at *2 (Tenn.Crim.App., at Knoxville, Apr. 15, 1998)
(stating that "correction of a judgment pursuant to Rule 36 does not extend the
statutory period for filing a petition for post-conviction relief"). This claim was not
later-arising because the transcript from the sentencing hearing shows that the
State, the defense attorney, and the trial court all stated that the Petitioner was to
receive a sentence with a release eligibility of 100% for his convictions for child
rape. See T.C.A. § 39-13-523(b). The Petitioner then had one year from the date
of the final action of the highest state appellate court to petition for post-conviction
relief. See id. § 40-30-102(a). Because the Tennessee Supreme Court denied
permission to appeal his case on February 8, 1999, the Petitioner had until
February 8, 2000, to file his post-conviction petition. Nevertheless, the Petitioner

https://nextcorrectional.westlaw.com/Document/Il Id3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v/ Stute | We&QuwNSXf

Page 11 nf 13 —

did not file his second post-conviction petition until April 7, 2011, more than eleven
years after the one-year statute of limitations expired.
Even if we conclude that entry of the corrected judgments tolled the statute of
limitations on due process grounds, the Petitioner filed his second post-conviction
petition nearly a year after the statute of limitations expired. Although the
Petitioner asks this court to toll the statute of limitations until January 2011, the
time he claims he first became aware of the corrected judgments, it is clear that
the Petitioner was aware of the correction of his judgments long before then. First,
this court filed its opinion in the habeas corpus case on February 24, 2009, at a
time when the Petitioner was still represented by counsel. Second, and most
importantly, the Petitioner filed a pro se petition for rehearing approximately two
weeks later on March 9, 2009, which this court promptly denied. This filing of this
court's opinion in the habeas corpus case and the filing of this the pro se petition
for rehearing belies the Petitioner's claims that he did not know the outcome of his
habeas corpus case or the fact that his case was remanded for corrected judgments
until January 2011. Even if we adopt the Petitioner's erroneous interpretation
regarding when the statute of limitations began to run, which we decline to do, the
Petitioner did not diligently pursue his rights under the first prong of the test
outlined in Whitehead. Given the "General Assembly's clear preference that the
post-conviction statute of limitations be strictly construed," we conclude that this
case does not require the tolling of the statute of limitations under the later-arising
claims doctrine or the discovery rule. Bush, 428 S.W.3d at 23.
We also conclude that the Petitioner is not entitled to relief because his claims have
been previously determined. In dismissing the instant petition, the post-conviction
court held not only that the Petitioner's second petition was time-barred and that
his claims did not fall within the exceptions to the statute of limitations but also
that the Petitioner's "specific complaints concerning his plea agreement and the
percentage of his sentence to be served [had] been previously litigated, either by
this Court and/or the Court of Criminal Appeals in [the Petitioner's] earlier Habeas
Corpus Petition." The record fully supports the findings of the post-conviction court.
See T.C.A. § 40-30106(h) (”A ground for relief is previously determined if a court
of competent jurisdiction has ruled on it on the merits after a full and fair
hearing ... where the petitioner is afforded the opportunity to call witnesses and
otherwise present evidence, regardless of whether the petitioner actually
introduced any evidence."); Tenn. Sup.Ct. R. 28, § 2(E) ("A claim for relief is
previously determined if a court of competent jurisdiction has ruled on the merits of
the claim after a full and fair hearing at which petitioner is afforded the opportunity
to call witnesses and present evidence."). All of the Petitioner's issues regarding his
release eligibility were resolved during his habeas corpus case. Specifically, this
court held that there was a clerical error in the judgments because "[r]eview of the
sentencing hearing transcript reveal[ed] that the State, defense counsel, and the
court stated that the fifteen-year sentences were to be served at one hundred
percent in compliance with the 'child rape law.' " See Jeffrey S. Whitaker, 2009 WL
454256, at *2. The Petitioner's claims regarding judicial estoppel were also
addressed during his habeas corpus case. After noting what was obviously a clerical
error in the judgments, this court held that the Petitioner was not entitled to relief
regarding his judicial estoppel claim and remanded the case for correction of the
judgments to show a release eligibility of 100%.
*10 After reviewing the record, we can comfortably conclude that the Petitioner
would not have been entitled to any relief even if we had reviewed his issues on
their merits. As this court previously observed, the transcript of the guilty plea
submission hearing clearly shows that the parties and the trial court understood

https://nextcorrectional.westlaw.com/Document/IlId3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v. State | WesttawNext

Page l.23nf-l 3

that the Petitioner's sentence would be served "in its entirety” based on the "the
law that's provided for child rape." The transcript of the sentencing hearing reflects
that the State argued for a forty-five-year sentence "to be served [at] 100%"
pursuant to the "Child Rape Law" and that the defense argued for a minimum
sentence of fifteen years, recognizing that this sentence would be served "day for
day, no parole, no good and honor time" and "no credits, none." Finally, the
transcript shows that the trial court ultimately imposed a "sentence to serve, as
you already know" of three consecutive fifteen-year sentences with the remaining
sentences served concurrently, for an effective sentence of forty-five years.
Accordingly, we affirm the denial of post-conviction relief.
CONCLUSION
Based on the aforementioned authorities and analysis, we conclude that the
Petitioner is not entitled to relief because this is the Petitioner's second post­
conviction petition, because this case does not require due process tolling, and
because the claims in this petition have been previously determined. Accordingly,
the judgment of the trial court is affirmed.

All Citations
Slip Copy, 2016 WL 97608
i Footnotes
1

It is the policy of this court to refer to minor victims of sexual offenses by
their initials.

2

The Petitioner made the guilty plea transcript an exhibit to his second
petition for post-conviction relief. Although page thirty-eight of the thirtynine-page transcript was omitted from the exhibit, the remainder of the
transcript makes it clear that the court imposed fifteen-year sentences for
each of the eight counts and ordered counts 1, 11, and 16 served
consecutively to one another for an effective sentence of forty-five years.
The original judgments of conviction also reflect this sentence.

3

A copy of the petition for writ of habeas corpus was not included in the
appellate record.

4

Only one corrected judgment, which was filed on July 27, 2009, was
included in the appellate record. This corrected judgment shows that the
Petitioner was convicted of the offense of child rape in count 23, and the
box for "community supervision for life" is checked. All eight of the
original judgments, which were entered on March 20, 1995, were
attached as an exhibit to the Petitioner's second post-conviction petition.

5

We have taken judicial notice of the Petitioner's pro se petition for
rehearing and this court's denial of the petition, as it was not included in
the appellate record.

6

The appellate record does not contain an order appointing counsel of
record to represent the Petitioner, although it appears that she made her
first appearance on behalf of the Petitioner at the June 30, 2014 hearing.

End of
Document

© 2017 Thomson Reuters. No claim to original U.S. Government Works.

https://nextcorrectional.westlaw.com/Document/IlId3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

Whitaker v. State’fWestlawNext

WestlawNext. ©2017 Thomson Reuters

Page-43 of I 3

©

THOMSON RCUTCftS

https://nextcorrectional.westlaw.com/Document/Il Id3c8a0b5881 Ie59dcad96e4d86e5cf/Vi... 2/13/2017

.t

■ • -a**- v „

APPENDIX D

No. 20-5872
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JEFFREY S. WHITAKER,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
MIKE PARRIS, WARDEN,
Respondent-Appellee.

FILED
Feb 19, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: NORRIS, WHITE, and BUSH, Circuit Judges.

Jeffrey S. Whitaker, a pro se Tennessee prisoner, petitions the court to rehear en banc its
order denying him a certificate of appealability. The petition has been referred to this panel, on
which the original deciding judge does not sit, for an initial determination on the merits of the
petition for rehearing. Upon careful consideration, the panel concludes that the original deciding
judge did not misapprehend or overlook any point of law or fact in issuing the order and,
accordingly, declines to rehear the matter. See Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX E

No. 20-5872
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JEFFREY S. WHITAKER,
Petitioner-Appellant,
v.
MIKE PARRIS, WARDEN,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)
)

FILED
Mar 08, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: NORRIS, WHITE, and BUSH, Circuit Judges.

Jeffrey S. Whitaker petitions for rehearing en banc of this court’s order entered on
December 16, 2020, denying his application for a certificate of appealability. The petition was
initially referred to this panel, on which the original deciding judge does not sit. After review of
the petition, this panel issued an order announcing its conclusion that the original application was
properly denied. The petition was then circulated to all active members of the court, none of
whom requested a vote on the suggestion for an en banc rehearing. Pursuant to established
court procedures, the panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX F
-i-*S

No. 20-5410
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
x?-

FILED
In re: JEFFREY S. WHITAKER,
Movant.

Jul 24, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)

ORDER

Before: SUTTON, COOK, and WHITE, Circuit Judges.
Jeffrey S. Whitaker, a pro se Tennessee prisoner, moves this court for an order authorizing
the district court to consider a second or successive petition for a writ of habeas corpus under 28
U.S.C. § 2254. See 28 U.S.C. § 2244(b).
In 1994, Whitaker pleaded guilty in the Roane County Criminal Court to eight counts of
child rape. Whitaker subsequently received an effective sentence of 45 years of imprisonment,
which the Tennessee Court of Criminal Appeals affirmed on direct appeal. State v. Whitaker, No.
03C01-9509-CC-00256, 1996 WL 600375 (Tenn. Crim. App. Oct. 15, 1996), perm. app. denied
(Tenn. Feb. 8, 1999). In 1995, Whitaker pleaded guilty in the Anderson County Criminal Court
to aggravated rape and incest and received an effective sentence of 15 years of imprisonment to
be served concurrently with his Roane County sentence.

According to his current motion,

Whitaker did not appeal his convictions or sentence in the Anderson County case.
After unsuccessfully seeking state post-conviction relief, see Whitaker v. State, No. E200102399-CCA-R3-PC, 2003 WL 21276125 (Tenn. Crim. App. June 3, 2003), Whitaker filed a
§ 2254 habeas petition challenging his Roane County convictions. The district court denied
Whitaker’s habeas petition and declined to issue a certificate of appealability. Whitaker appealed,
and this court denied him a certificate of appealability.
Whitaker returned to the state courts and filed a habeas petition, challenging his sentence
in the Roane County case on the basis that he was sentenced as a Range I, standard offender with

No. 20-5410
-2-

eligibility for release after serving thirty percent of his sentence. The trial court denied Whitaker’s
habeas petition. The Tennessee Court of Criminal Appeals affirmed the denial of habeas relief but
remanded for correction of the judgments to reflect that he must serve the entirety of his 45-year
sentence for his child rape convictions. Whitaker v. Morgan, No. E2007-02884-CCA-R3-HC,
2009 WL 454256 (Tenn. Crim. App. Feb. 24, 2009), perm. app. denied (Tenn. Aug. 17, 2009).
Whitaker subsequently filed a petition for post-conviction relief. The trial court denied Whitaker’s
petition, and the Tennessee Court of Criminal Appeals affirmed. Whitaker v. State, No. E201402240-CCA-R3-PC, 2016 WL 97608 (Tenn. Crim. App. Jan. 7, 2016), perm. app. denied (Tenn.
June 23, 2016).
In 2017, Whitaker filed another § 2254 habeas petition, asserting that the State breached
his plea agreement in the Roane County case. Upon the respondent’s motion, the district court
transferred Whitaker’s habeas petition to this court to obtain authorization for its consideration.
See 28 U.S.C. § 1631; In re Sims, 111 F.3d 45, 47 (6th Cir. 1997) (per curiam). Whitaker then
moved this court for an order authorizing the district court to consider a second or successive
_

habeas petition. This court denied Whitaker’s motion as unnecessary because he had not yet filed
a habeas petition following the corrected judgments requiring him to serve the entirety of his 45year sentence and because he asserted claims relating to events that occurred after the denial of his
first habeas petition. This court remanded the case to the district court for consideration of
Whitaker’s habeas petition, which is still pending.
Whitaker again moves this court for an order authorizing the district court to consider a
second or successive habeas petition. See 28 U.S.C. § 2244(b). Seeking to challenge the statecourt judgments in both the Roane County and the Anderson County cases, Whitaker claims that
he recently discovered exculpatory statements made by the alleged victims and withheld by the
State in violation of Brady v. Maryland, 373 U.S. 83 (1963), and that this new evidence of his
actual innocence renders his guilty pleas involuntary and unknowing.

No. 20-5410
-3 -

Whitaker’s motion is unnecessary. Whitaker has never filed a habeas petition challenging
his Anderson County convictions. And because of our prior order, Whitaker does not need
authorization to challenge his Roane County convictions either.
For these reasons, we DENY as unnecessary Whitaker’s motion for an order authorizing
the district court to consider a second or successive habeas petition. Whitaker’s motion for leave
to amend his memorandum of law is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

